APPENDIX TABLE OF CONTENTS
FEDERAL COURTS
Opinion of the United States Court of Appeals for
the Second Circuit (March 12, 2019)................ la
Memorandum and Order of the United States
District Court for the Eastern District of New
York (February 2, 2018)..................................... 5a
Order of the United States Court of Appeals for the
Second Circuit Denying Petition for Rehearing
(May 28, 2019).................................................... 13a
NEW YORK COURTS
Order of the Court of Appeals of New York
(November 22, 2016)................ ..............

14a

Decision and Order of the Supreme Court
of the State of New York (October 2, 2015)..... 15a
Decision and Order of the Supreme Court
of the State of New York (August 3, 2015)

18a

Opinion of the Appellate Division of the Supreme
Court of the State of New York
(March 11, 2015)................................................. 25a
Decision After Trial of the Supreme Court
of the State of New York (May 2, 2008)

29a

Order of the Supreme Court of the
State of New York (September 15, 2008)

46a

Order of the Supreme Court of the
State of New York (May 2, 2008)............

48a

App.la

OPINION OF THE UNITED STATES
COURT OF APPEALS FOR THE SECOND CIRCUIT
(MARCH 12, 2019)
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
AVTAR S. BADWAL,
Plain tiff-Appellan t,
v.
RAMANDEEP BADWAL, JEFFREY S. BROWN,
In his Official and Personal Capacity,
Defendants-Appellees.
No. 18-827
Appeal from a Judgment of the United States
District Court for the Eastern District of New York
(DeArcy Hall, J.).
Before: Amalya L. KEARSE, Dennis JACOBS,
Peter W. HALL, Circuit Judges.
UPON DUE CONSIDERATION, IT IS HEREBY
ORDERED, ADJUDGED, AND DECREED that the
judgment of the district court is AFFIRMED.
Appellant Avtar Badwal, pro se, appeals from the
district court’s judgment dismissing sua sponte his
complaint for lack of subject matter jurisdiction and
as frivolous. Badwal brought claims under 42 U.S.C.

App.2a
§ 1983 and state law against his former wife and the
state court judge who presided over their divorce pro­
ceedings. We assume the parties’ familiarity with the
underlying facts, the procedural history of the case,
and the issues on appeal.
On appeal from a judgment dismissing a complaint
for lack of subject matter jurisdiction pursuant to
Federal Rule of Civil Procedure 12(h)(3), we review
the district court’s factual findings for clear error and
its legal conclusions de novo. See Maloney v. Soc. Sec.
Admin., 517 F.3d 70, 74 (2d Cir. 2008) (per curiam).
Although we have not yet decided whether we review
de novo or for abuse of discretion the exercise of
inherent authority to sua sponte dismiss a complaint
as frivolous, we need not do so here because the district
court’s decision “easily passes muster under the more
rigorous de novo review.” Fitzgerald v. First E. Seventh
St Tenants Corp., 221 F.3d 362, 364 n.2 (2d Cir.
2000) (per curiam). We afford a pro se litigant “special
solicitude” by interpreting a complaint filed pro se “to
raise the strongest claims that it suggests.” Hill v.
Curcione, 657 F.3d 116, 122 (2d Cir. 2011) (internal
alterations and quotation marks omitted).
To the extent Badwal seeks to vacate orders of
the state court, his complaint was properly dismissed
pursuant to the Rooker-Feldman doctrine. See Exxon
Mobil Corp. v. Saudi Basic Indus. Corp., 544 U.S.
280, 284 (2005) (noting that Rooker^Feldman bars
consideration of “cases brought by state-court losers
complaining of injuries caused by state-court judgments
rendered before the district court proceedings com­
menced and inviting district court review and rejec­
tion of those judgments”).!! Further, as the district
court concluded, Justice Brown is immune from suit.

App.3a

See Gollomp v. Spitzer, 568 F.3d 355, 365-68 (2d Cir.
2009) (noting that sovereign immunity bars § 1983
action brought against the New York Unified Court
System and an individual acting in his judicial
capacity); Green v. Maraio, 722 F.2d 1013, 1016-18
(2d Cir. 1983) (“A judge defending against a section
1983 action is entitled to absolute judicial immunity
from damages liability for acts performed in his judicial
capacity.”); see also 42 U.S.C. § 1983 (barring injunctive
relief against judicial officers “unless a declaratory
decree was violated or declaratory relief was unavail­
able”).
To the extent the complaint may be construed to
raise a § 1983 conspiracy claim against Badwal’s former
wife, which might be outside the Rooker-Feldman doc­
trine, any such claim is inadequately pleaded. “To
state a claim against a private entity on a section
1983 conspiracy theory, the complaint must allege
facts demonstrating that the private entity acted in
concert with the state actor to commit an unconstitu­
tional act.” Spear v. Town ofW. Hartford954 F.2d 63,
68 (2d Cir. 1992). Badwal alleges only that his former
wife benefited from the alleged violations of his
rights and that the alleged abuse of judicial powers
occurred “in concert with others.” App’x 10. See
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (“Threadbare
recitals of the elements of a cause of action, support­
ed by mere conclusory statements, do not suffice”).
Badwal does not challenge the denial of leave to amend
his complaint; in any event, Badwal’s complaint does
not “suggestO that [Badwal] has a claim that Ohe has
inadequately or inartfully pleaded and that Qhe
should therefore be given a chance to reframe.” Cuoco
v. Moritsugu, 222 F.3d 99, 112 (2d Cir. 2000).

App.4a

Badwal does not challenge the district court’s
decision declining to exercise supplemental jurisdiction
over his state law claims and, in any event, the district
court did not abuse its discretion in declining to do so
because Badwal’s federal claims were properly dis­
missed. See Carnegie-Mellon Univ. v. Cohill, 484 U.S.
343, 350 n.7 (1988) C‘[l]n the usual case in which all
federal-law claims are eliminated before trial, the
balance of factors . .. will point toward declining to
exercise jurisdiction over the remaining state-law
claims.”).
We have considered all of Badwal’s remaining
arguments and find them to be without merit. Accord­
ingly, we AFFIRM the judgment of the district court.
FOR THE COURT:
Catherine O’Hagan Wolfe
Clerk of Court

App.5a

MEMORANDUM AND ORDER
OF THE UNITED STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF NEW YORK
(FEBRUARY 2, 2018)
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
AVTAR S. BADWAL,
Plaintiff,
v.
RAMANDEEP BADWAL; JEFFREY S. BROWN,
in his Official and Personal Capacity,
Defendants.
17-CV-4310 (LDH)(CLP)
Before: Lashann Dearcy HALL, United States
District Judge.
Plaintiff Avtar Badwal, proceeding pro se, brings
this action against Ramandeep Badwal, his ex-wife,
and Jeffrey S. Brown, a state court judge, asserting
claims under 42 U.S.C. § 1983 and state law.l For
the reasons set forth below, the action is dismissed.

1 In commencing this action, Plaintiff paid the requisite filing
fee.

App.6a
I.

Background2

Plaintiff and Defendant Badwal were divorced by
judgment dated July 1, 2010 and entered in the
Supreme Court of the State of New York, Nassau
County by Judge Jeffrey Brown. (Compl. If 6! see also
Ex. 3.) Plaintiff brings the instant action to challenge
the state court’s decisions regarding his divorce,
equitable distribution, and child support on the grounds
that the decisions violated his equal protection and
due process rights under the United States Constitu­
tion. (Compl. ^ 2.) Plaintiff also alleges various state
law claims, including violation of the New York State
Constitution, breach of implied covenant of good faith
and fair dealing, civil conspiracy, and intentional and
negligent infliction of emotional distress.
II.
'f

Standard of Review

A court must construe a pro se litigant’s pleadings
liberally, Erickson v. Pardus, 551 U.S. 89, 94 (2007);
Harris v. Mills, 572 F.3d 66, 72 (2d Cir. 2009), and a
pro se complaint should not be dismissed without
granting the plaintiff leave to amend “at least once
when a liberal reading of the complaint gives any
indication that a valid claim might be stated.” Gomez
v. USAA Fed. Sav. Bank, 171 F.3d 794, 795 (2d Cir.
1999) (internal quotation marks and citations omitted).
Nevertheless, “a pro se plaintiff must still comply
with the relevant rules of procedural and substantive
law, including establishing that the court has subject
matter jurisdiction over the action.” Wilber v. U.S.
2 The following facts are drawn from the complaint and its
attachments, the allegations of which are assumed to be true for
purposes of this Memorandum and Order.

App.7a

Postal Serv., No. 10-CV-3346 (ARR), 2010 WL 3036754,
at *1 (E.D.N.Y. Aug. 2, 2010) (internal quotation
marks and citations omitted).

, V

Moreover, even if a plaintiff has paid the fihng
fee, a district court may dismiss the case, sua sponte,
if it determines that the action is frivolous.
Fitzgerald v. First East Seventh Street Tenants Corp.,
221 F.3d 362, 363-64 (2d Cir. 2000); see Mallard v.
United States District Court, 490 U.S. 296, 307-08
(1989) (noting that “[28 U.S.C. § ] 1915(d), for example,
authorizes courts to dismiss a ‘frivolous or malicious’
action, but there is little doubt they would have
power to do so even in the absence of this statutory
provision”). “A complaint will be dismissed as ‘frivolous’
when ‘it is clear that the defendants are immune from
suit.’” Montero v. Travis, 171 F.3d 757, 760 (2d
Cir. 1999) (quoting Neitzke v. Williams, 490 U.S. 319,
325, 327 (1989)); see also Jolley v. Chatigny, No. 04Civ-182, 2004 WL 306116, at *2 (D. Conn. Feb.12, 2004)
(stating that, when it is clear that the defendants are
immune from suit, a dispositive defense appears on
the face of the complaint, the action can he dismissed
as frivolous). Indeed, “district courts are especially
likely to be exposed to frivolous actions and, thus,
have [a] . . . need for inherent authority to dismiss
such actions quickly in order to preserve scarce judicial
resources.” Fitzgerald, 221 F.3d at 364. A cause of
action is properly deemed frivolous as a matter of law
when, inter alia, it is “based on an indisputably
meritless legal theory”—that is, when it “lacks an
arguable basis in law . .., or [when] a dispositive
defense clearly exists on the face of the complaint.”
Livingston v. Adirondack Beverage Co., 141 F.3d 434,
437 (2d Cir. i998).

App.8a
III. Discussion
A. Lack of Subject Matter Jurisdiction
Federal courts are courts of limited jurisdiction
and may not preside over cases absent subject matter
jurisdiction. Exxon Mobil Corp. v. Allanattah Servs.,
Inc., 545 U.S. 546, 552 (2005); Frontera Res.
Azerbaijan Com, v. State Oil Co. ofAzerbaijan Republic,
582 F.3d 393, 397 (2d Cir. 2009). The requirement of
subject matter jurisdiction cannot be waived, United
States v. Cotton, 535 U.S. 625, 630 (2002), and its
absence may be raised at any time by a party or by
the court sua sponte. See Henderson ex rel. Henderson
v. Shinseki, 562 U.S. 428, 434 (2011) (“[F]ederal
courts have an independent obbgation to ensure that
they do not exceed the scope of their jurisdiction, and
therefore they must raise and decide jurisdictional
questions that the parties either overlook or elect not
to press.”). When a court lacks subject matter juris­
diction, dismissal is mandatory. Arbaugh v. Y & H
Corp., 546 U.S. 500, 514 (2006); see also Fed.R.Civ.P.
12(h)(3). Federal jurisdiction is available only when a
“federal question” is presented, 28 U.S.C. § 1331, or
when the plaintiff and defendant are of diverse
citizenship and the amount in controversy exceeds
$75,000.00. 28 U.S.C. § 1332.
Federal courts have customarily declined to
intervene in the i-ealm of domestic relations. “Long
ago [the Supreme Court] observed that ‘[t]he whole
subject of the domestic relations of husband and wife,
parent and child, belongs to the laws of the States
and not to the laws of the United States.’ So strong is
our deference to state law in this area that we have
recognized a ‘domestic relations exception’ that ‘divests

App.9a
the federal courts of power to issue divorce, alimony,
and child custody decrees’” Elk Grove Unified Sch.
Dist. v. Newdow, 542 U.S. 1 (2004) (quoting In re
Burrus, 136 U.S. 586, 593-594 (1890) and Ankenbrandt
v. Richards, 504 U.S. 689, 703 (1992)), abrogated on
other grounds by Lexmark Inti, Inc. v. Static Control
Components, Inc., 134 S. Ct. 1377 (2014); see also
Neustein v. Orbach, 732 F. Supp. 333, 339-40 (E.D.N.Y.
1990) (district court held that it lacked jurisdiction
because it could not resolve factual disputes connected
to domestic relations). As such, federal courts repeatedly
dismiss actions aimed at changing the results of
domestic proceedings, including orders of child custody.
See Ruchinsky v. Devack, No. 14-CV-2219 SLT, 2014
WL 2157533, at *9 (E.D.N.Y. May 23, 2014) (“While
Ankenbrandt did not expressly state that the domestic
relations exception extends to child support decrees,
the Second Circuit has stated that ‘where a federal
court is asked to grant a divorce or annulment, deter­
mine support payments, or award custody of a
child’. .. [courts] generally decline jurisdiction
pursuant to the matrimonial exception.”) (quoting
American Airlines, Inc. v. Block, 905 F.2d 12, 14 (2d
Cir.1990)); Sulhvan v. Xu, No. 10-CV-3626 ENV, 2010
WL 3238979, at *2 (E.D.N.Y. Aug. 13, 2010) (finding
no jurisdiction over plaintiffs challenges to child
custody and child support orders); Neustein, 732 F.
Supp. at 339.
That said, dismissal is warranted here as Plaintiff
asks this Court to undertake a wholesome review of
the state court’s decisions regarding his domestic
relations on the basis that “his due process was violated
and the State Court was bias and the decisions were
prejudicial.” (Compl. 2.) If this Court were to allow

App.lOa
Plaintiff to pursue this action, the Court would be
“forced to re-examine and re-interpret all the evidence
brought before the state court” in the earlier
proceedings. See McArthur v. Bell, 788 F. Supp. 706,
709 (E.D.N.Y. 1992) (former husband’s 42 U.S.C. § 1983
action in which he claimed that his constitutional
rights were violated in proceedings in which former
wife obtained upward adjustment of child support would
require the court to “re-examine and re-interpret all
the evidence brought before the state court” in the
earlier state proceedings and, therefore, district court
did not have subject matter jurisdiction). As such,
this action is barred by the domestic relations exception
to this Court’s jurisdiction.
Further, to the extent Plaintiff requests that
this Court review and vacate the orders of the state
court, such relief is barred by the Rooker-Feldman
doctrine, which precludes federal courts from hearing
“cases brought by state-court losers complaining of
injuries caused by state-court judgments rendered
before the district court proceedings commenced and
inviting district court review and rejection of those
judgments.” ExxonMobil Corp. v. Saudi Basic Indus.
Corp., 544 U.S. 280, 284 (2005) (citing Rooker v.
Fidelity Trust Co., 263 U.S. 413 (1923), and District
of Columbia Court of Appeals v. Feldman, 460 U.S.
462 (1983)).
B. Immunity to § 1983 Actions
Even if the Court had subject matter jurisdiction
over this complaint, the claims against Judge Brown
would be dismissed as frivolous because it is “clear
that the defendant 0 [is] immune from suit.” Montero,
171 F.3d at 760. Indeed, judges have absolute

App.lla
immunity from suits for damages for judicial acts
performed in their judicial capacities. See Warden v.
Dearie, 172 F.3d 39 (2d Cir. 1999) (citing Mireles v.
Waco, 502 U.S. 9, 11-12 (1991) (judges are immune to
suit except for actions not taken in judicial capacity
and actions taken in complete absence of all jurisdic­
tion).
The fact that Plaintiff also seeks injunctive relief
in this action does not alter Judge Brown’s entitlement
to immunity in this action. In 1996, Congress enacted
the Federal Courts Improvement Act of 1996, Pub. L.
No. 104-317, 110 Stat. 3847 (1996), amending 42 U.S.C.
§ 1983 to provide that in “any action brought against
a judicial officer for an act or omission taken in such
officer’s judicial capacity, injunctive relief shall not
be granted unless a declaratory decree was violated
or declaratory relief was unavailable.” See 42 U.S.C.
§ 1983. The complaint does not allege that a declaratory
decree was violated or allege facts suggesting that
declaratory relief was unavailable. In any event,
“ [declaratory relief against a judge for actions taken
within his or her judicial capacity is ordinarily
available by appealing the judge’s order.” LeDuc v.
Tilley, No. 3:05CV157MRK, 2005 WL 1475334, at *7 (D.
Conn. June 22, 2005) (citing cases). Because Plaintiff
has not alleged violation of a judicial decree or that
declaratory relief was unavailable, his claims against
Judge Brown are also dismissed as frivolous.
CONCLUSION
Accordingly, the complaint is dismissed for lack
of subject matter jurisdiction pursuant to Fed. R. Civ.
P. 12 (h)(3) and as frivolous because Judge Brown is
immune to this action. Montero v. Travis, 171 F.3d at

App.l2a

760. The Court has considered affording Plaintiff
leave to amend the complaint, see Cuoco v. Moritsugu,
222 F.3d 99, 112 (2d Cir. 2000), but declines to do so.
Any opportunity to amend would be futile because a
review of the complaint does not suggest that Plaintiff
has inadequately or inartfully pleaded any potentially
viable claims. Any state law claims are dismissed
without prejudice. Although Plaintiff paid the filing
fee, the Court certifies pursuant to 28 U.S.C.
§ 1915(a)(3) that any appeal from this Order would
not be taken in good faith and therefore in forma
pauperis status is denied for purpose of an appeal.
Coppedge v. United States, 369 U.S. 438, 444-45 (1962).
SO ORDERED.
/s/ LDH
Lashann Dearcy Hall
United States District Judge
Dated: Brooklyn, New York
February 2, 2018

App.l3a

ORDER OF THE UNITED STATES COURT OF
APPEALS FOR THE SECOND CIRCUIT DENYING
PETITION FOR REHEARING
(MAY 28, 2019)
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
AVTAR S. BADWAL,
Plaintiff-Appellant,
v.
RAMANDEEP BADWAL, JEFFREY S. BROWN,
in his Official and Personal Capacity,
Defendants-Appellees.
Docket No. 18-827
Before: Amalya L. KEARSE, Dennis JACOBS,
Peter W. HALL, Circuit Judges.
Appellant having filed a petition for panel
rehearing and the panel that determined the appeal
having considered the request,
IT IS HEREBY ORDERED that the petition is
DENIED.
For The Court:
Is/ Catherine O’Hagan Wolfe.
Clerk of Court

App.l4a

ORDER OF THE
COURT OF APPEALS OF NEW YORK
(NOVEMBER 22, 2016)
STATE OF NEW YORK COURT OF APPEALS
RAMANDEEP BADWAL
Respondent,
v.
AVTAR S. BADWAL,
Appellant.
Mo. No. 2016-923
Before: Hon. Janet DIFIORE,
Chief Judge, Presiding.
Appellants having moved for leave to appeals to
the court of Appeals in the above cause;
Upon the papers filed and due deliberation, it is
Ordered, that the motion is dismissed upon the
ground that this Court does not have jurisdiction to
entertain the motion (See NY Const, art VI, § 3(b);
CPLR 5602).
Is/ John P. Asiello
Clerk of the Court

App.l5a

DECISION AND ORDER OF THE
SUPREME COURT OF THE STATE OF NEW YORK
(OCTOBER 2, 2015)
SUPREME COURT OF THE STATE OF
NEW YORK COUNTY OF NASSAU
RAMANDEEP BADWAL,
Plaintiff,
v.
AVTAR S. BADWAL,
Defendant.
TRAIL/IAS PART 25
Index No. 201751/06
Seq. No.: 012
Hon. Jeffery A. GOODSTEIN, A.J.S.C.
The following papers were read on this motion: 1
Notice of motion, Affirmative in Support, and Exhibits
Affirmation in Opposition
1 The instant motion was filed by the Defendant, Ex-Husband The
ex-husband does not offer any new additional facts or law which
have not been previously submitted and determined by this Court
that would justify the Ex-Husband’s request for vacating, amending
or reversing the prior determination of this court. Additionally,
Ex-Husband filed an appeal to the Second Department Appel­
late Division, in which the terms of the judgment of Divorce were
upheld.

'r

App.l6a
This post judgment motion was brought by the
defendant (“Ex Husband”) seeking the following relief
vacating the default order/Judgment; (2) ordering a
traverse hearing and vacating the order dated August 3,
2015; (3) dismissing the instant motion for failure to
serve the defendant’; (4) amending calculations of
child support and arrears; and (5) opposing the sale
of the former marital residence and distribution of
the proceeds. The Plaintiff (“Ex-Wife”) opposes the
Ex-Husband’s motion in its entirety.
The Ex-Husband has filed a series of motions
seeking to reverse the Judgment of Divorce. The Court
has repeatedly denied the Ex-Husband’s request to
reverse the Judgment of Divorce, including the pro­
visions requiring that the marital residence be sold.
Also, the Ex-failed to attach said Judgment of Divorce
in his papers. The ex-husband provides no background
to this case, nor does he provides the Court with any
evidence to grant his request for a traverse hearing.
Pursuant to the Decision After Trail of Judge Jeff­
rey Brown dated July 1, 2010 (the “Trial Decision”),
the Ex-Husband was directed to place the former
marital residence on the market for sale within 30
days after service of a copy of the Trial Decision. The
Trial Decision also required the Ex-Husband, who
was in sole possession of the former marital residence,
to pay all of the carrying charges, including the
mortgage, until the property was sold. By Decision and
Order, dated September 17, 2014, Judge Margaret
Reilly appointed a receiver, at a payment rate of 5%
commission of the sale price, to sell the former marital
residence. The marital residence was then sold by
the receiver and a writ of assistance was issued. The
net proceeds of the sale has been disbursed by the

App.l7a

Decision and Order dated August 3, 2015. The dispute
regarding the broker’s commission have also been
resolved. For these reasons, the Ex-Husband’s requests
are all DENIED.
Any other requested relief not addressed herein
is DENIED.
This is the Decision and Order of this Court.
Enter:
/s/ Hon. Jeffery A. Goodstein
A.J.S.C.
Dated: October 7, 2015
Mineola, New York

App.l8a
DECISION AND ORDER OF THE
SUPREME COURT OF THE STATE OF NEW YORK
(AUGUST 3, 2015)
SUPREME COURT OF THE STATE OF
NEW YORK COUNTY OF NASSAU
RAMANDEEP BADWAL,
Plaintiff,
v.
AVTAR S. BADWAL,
Defendant.
TRAIL/IAS PART 25
Index No. 201751/06
Motion Seq. 005 & 006
Before: Hon. Margaret C. REILLY, J.S.C.,
Hon. Jeffery A. GOODSTEIN, A.J.S.C.
Upon the foregoing papers, it is ordered that the
parties’ respective motions are decided as follows:
{

*

The plaintiff moves (motion sequence #005) for
an order (a) punishing the defendant for contempt of
Court, pursuant to DRL § 245 and Judiciary Law § 753,
as a result of the defendant’s failure to abide by that
part of the Judgment of Divorce which directed that
the former marital home, be placed on the market for
sale within thirty (30) days after the Court’s Decision
is served on the defendant’s counsel, and further di-

App.l9a
rected the defendant to continue to pay the carrying
charges for the marital home, including the mortgage,
until said . . . the plaintiff as agent for the defendant
allowing the plaintiff to list the former marital residence
and to execute a brokerage agreement, sales contracts,
and to execute a deed conveying the property, on behalf
of the parties hereto, and all documents required to
transfer said property; (c) directing the defendant be
removed from the former marital residence in order
to facilitate the sale; (d) awarding the plaintiff counsel
fees; and (e) awarding the plaintiff a money judgment
for child support arrears.
The defendant cross moves (motion sequence #006)
for an order (l) denying plaintiffs application in its
entirety; and (2) issuing defendant a stay with respect
to this matter, including but not limited to enforcement
of the April 10, 2013. Judgment incorporating the
Decision.

LEGAL ANALYSIS AND ORDER OF THE COURT
PLAINTIFFS ORDER TO SHOW CAUSE
MOTION SEQUENCE #005
(l) The branch of the plaintiffs order to show cause
for an order adjudging the defendant guilty of con­
tempt for his misconduct in failing to obey the Order
of the Honorable Jeffrey S. Brown, ;in the Decision of
the Supreme Court, dated December 22, 2011, read
in relevant part as follows:
“ ... As a result, the court directs the sale of
the marital residence with the net proceeds
being' divided equally. The litigants shall
contact broker and comparables shall be used
to set a listing price. The house shall be placed
on the market within 30 days after service

App.20a

of a copy of this order upon the defendant’s
counsel with notice of entry. Defendant shall
use the rental income to pay the mortgage.”
On November 13, 2010, a copy of the Decision was
mailed to the defendant with Notice of Entry. A
Judgment of Divorce was entered on April 10, 2013.

•>

The plaintiff asserts that, although it has been
almost four years since the Court’s Decision, the defen­
dant has refused to cooperate with the sale of former
marital residence. The defendant has also failed to pay
for the mortgage, causing the property to fall deduc­
tion of $29,400.00, the Ex-Wife requests that the fee
of the Receiver, totaling $36,750.00, be paid from the
Ex-Husband’s share of the net proceeds. Ex-Wife
argues that the entire fee of the Receiver should be
deducted from the Ex-Husband’s share of the proceeds.
If granted, after the deduction of the fees of the
Receiver, Ex-Husband’s interest in the net proceeds
would be $103,162.19. From said balance, the ExWife requests her attorney fees be paid in full by the
Ex-Husband based upon his failure to abide by the
Trial Decision. The legal fees incurred through the.
Preparation of the instant Motion total $15,740.00.
Therefore, after a deduction of counsel fees Ex-Wife
argues that, there remains the sum of $87,522.19
from the Ex-Husband’s share of the proceeds. ExWife further argues that an. additional $19,526.00
should be deducted from the. Ex-Husband’s interest
representing one-half of the reduction of the mort­
gage principal which would have occurred if the ExHusband had not defaulted on the payments of the
mortgage bn November l, 2011. The amount is onehalf of the amount that the mortgage balance would
have been reduced if Ex-Husband followed the Trial

App.21a

Decision. After applying all of these deductions, to the
Ex-Husband’s interest, his remaining net proceeds is
$21,286.51 However, Ex-Wife requests that since she
has an outstanding money ‘judgment against ExHusband for $64,000.00 in child support arrears, the
remaining balance should be deducted and paid to
Ex-wife to reduce the monies owed by the Ex-Husband
on the’ money judgment to $42,713.49.
DISCUSSION
With regard to the issue of the broker’s commission
dispute, the Receiver, in his Report, explains that he
did not pay a broker’s commission at the time of the
closing because:
a)

It appears that the listing’ agreement expired
August 30, 2014 and was not renewed and the
contract of sale was consummated on Octo­
ber 3, 2014;

b)

There is a dispute between the Ex-Wife, who
is the only signatory to the listing agreement,
as to what the percentage of the commission
was; and

c)

The Receiver was not given a commission
statement until after the closing and the
Ex-Wife’s attorney indicated that he would
work it out post-closing. None of the brokers
appeared at the closing. The potential com­
mission is approximately $44,100.00 based
on 6% however the Ex-Wife maintains it is
2% and that the agreement was changed
after she signed it.

Based on the foregoing, the Ex-Wife’s requests
are to a certain extent, GRANTED. The Ex-Husband

App.22a
simply failed to abide by the Trial Decision, delayed
access to the Receiver, and made frivolous motions
seeking to reargue the Trial Decision year later, all of
which required the Ex-Wife to obtain counsel to force
the Ex-husband to comply with the Trial Decision. For
the Ex-Wife to receive less proceeds due to Ex-Hus­
bands failure to pay the mortgage decreasing the net
proceeds from the sale of the former marital residence
would be inequitable. In addition, in compliance with
the order appointing Receiver, he is entitled to 5%
commission plus his additional expenses totaling
$553.18, of which he provided proper proof. Accord­
ingly, it is hereby
ORDERED, that with the proceeds of $309,224.38
being held in escrow by the Receiver, he shall continue
to hold $44,100.002 in escrow until the issue regarding
the broker’s’ fee is resolved.
.
ORDERED, that the Receiver shall release to
himself $36,750.00 as and for his 5% fee pursuant to
the Order Appointing Receiver, plus $553.38 in
expenses from the Ex-Husband’s share of the proceeds
and it is further.
ORDERED; that $15,700.00 shall be distributed
from Ex-Husband’s interest to Ex-Wife’s counsel as
and for the legal fees incurred seeking to enforce the
Trial Decision based on Ex-Husband’s dilatory tactics;
and it is further
4

ORDERED, that all remaining funds ($212,
121.00) shall be distributed to the Ex-Wife consisting
of her half interest in the proceeds of the former
2 Totaling the. possible 6% commission, based upon the listing
agreement.

App.23a
marital residence as set forth in the Trial Decision,
and a credit of $19,526.00 which represented one-half
of the reduction of the mortgage principal which would
have occurred if the Ex-husband had not defaulted on
the payments of the mortgage on November 1, 2011;
and $46,507.67 as and for one-half of the additional
fees (including, interest, penalties, late fees, fees of the
Lender’s foreclosure attorney and other fees associated
with the foreclosure) charged by CitiMortgage as a
result of the Ex-Husband’s default and the remaining
$13,525.14 shall to be applied to Ex-Husband’s child
support arrears reducing his money judgment; and it
is further
ORDERED, that after the dispute with the broker
regarding the remaining $44,100.00 in escrow is
resolved between the Ex-Wife and the brokers, or
further order of a court of competent jurisdiction, the
remaining sum, if any, shall be distributed to ExWife as a further credit against the money judgment
for Ex-Husband’s child support arrears.
Therefore, based upon the foregoing, after deduct­
ing the $44,100.00 to continue to be held in escrow,
the remaining balance is $265,124.38. Pursuant to the
Trial Decision, each party is supposed to receive half
of the proceeds. This would entitle each party to
$132,562.19. However, based, upon the credits listed
above, the Ex-Wife shall receive $212,121.00 and the
Ex-Husband shall receive $0.00, as follows:
Deducted from the Ex-Husband’s share is
$37,303.38 for the Receiver (Ex-Husband’s distributive
share is now reduced to $95,258.81); Deducted from
Ex-Husband’s share is $15,700.00 to he paid to ExWife’s counsel (Ex-Husband’s distributive share is
now reduced to $79,558.81);

App.24a
Deducted from Ex-Husband’s share and added to
the Ex-Wife’s share is $19,526.00 representing, onehalf of the reduction of the mortgage principal if ExHusband did not default (Ex-Husband’s distributive
share is now reduced to $60,032.81 and Ex-Wife’s
distributive share is increased to $152,088.19);

/-

Deducted from Ex-Husband’s share and added to
Ex-Wife’s share is $46,507.67 representing one-half
of the additional fees charged by CitiMortgage as a
result of Ex-Husband’s default (Ex-Husband’s distrib­
utive share is now reduced to $13,525.14 and ExWife’s distributive share is increased to $198,595.86);
and;
Deducted from, Ex-Husband’s share and increasing
the Ex-Wife’s share is $13,525.14 to reduce ExHusband’s child support arrears (Ex-Husband’s
distributive share is now reduced to $0.00 and the
Ex-Wife’s distributive ....
Any other requested relief not addressed herein
is denied.
This is the Decision and Order of this Court.
ENTER
Jeffery A. Goodstein
A.J.S.C.
Dated: August 3, 2015
Mineola, New York

App.25a

OPINION OF THE APPELLATE DIVISION
SUPREME COURT OF THE STATE OF NEW YORK
(MARCH 11, 2015)
SUPREME COURT OF THE
STATE OF NEW YORK APPELLATE DIVISION,
SECOND JUDICIAL DEPARTMENT
RAMANDEEP BADWAL,
Respondent,
v.
AVTAR S. BADWAL,
Appellant,
No. 2013-06098
(Index No. 201751/06)
Before: William F. MASTRO, Presiding Judge.,
Thomas A. DICKERSON, Jeffrey A. COHEN,
Hector D. LASALLE, Judges.
DECISION AND ORDER
.;

V
f.

In an action for a divorce and ancillary relief, the
defendant appeals, as limited by his brief, from
stated portions of a judgment of divorce of the Supreme
Court, Nassau County (Brown, J.), entered April 10,
2013, which, upon a decision of the same court dated
July 1, 2010, made after a nonjury trial, inter alia,
failed to equitably distribute certain residential prop-

App.26a

erty in New Hyde Park, the value of the plaintiffs
nursing license, and the proceeds from the sale of a
motel owned by the parties, and directed him, among
other things, to pay child support in the sum of $220
per week to the plaintiff through the Child Support
Collection Unit.
ORDERED that the judgment is affirmed insofar
as appealed from, without costs or disbursements.
Contrary to the defendant’s contention, the
Supreme Court properly determined that there was no
need to equitably distribute $200,000 in proceeds
from the sale of a motel owned by the parties. Although
the defendant contends that the plaintiff improperly
engaged in self-help by taking these funds, the record
supports the court’s determination that the parties
agreed to the division of the proceeds of the sale of
the motel prior to their separation, and that the
plaintiff received two checks totaling $200,000 pursuant
to that agreement. Accordingly, it was unnecessary
to equitably distribute the subject proceeds.
The Supreme Court correctly determined that the
plaintiffs home in New Hyde Park was not marital
property subject to equitable distribution, as it was
purchased after the commencement of this action (see
Domestic Relations Law § 236[B] [l] [c]; Mesholam v.
Mesholam, 11 NY3d 24, 28).
The Supreme Court did not err in determining that
the plaintiffs nursing license was not marital property
subject to equitable distribution. Although the enhanced
earnings from academic degrees and professional
licenses attained during the marriage are subject to
equitable distribution, it is incumbent upon the nontitled party seeking a distributive share of such a ssets

App.27a
to demonstrate a substantial contribution to the
titled party’s acquisition of that marital asset. Where
only modest contributions are made by the nontitled
spouse toward the other spouse’s attainment of a
degree or professional license, and the attainment is
more directly the result of the titled spouse’s own
ability, tenacity, perseverance and hard work, it is
appropriate for courts to limit the distributed amount
of that enhanced earning capacity (see Haspel v.
Haspel, 78 AD3d 887; Higgins v. Higgins, 50 AD3d
852). Here, there is no evidence that the defendant
made a substantial contribution to the plaintiffs
acquisition of her nursing degree. There is no evi­
dence that the defendant made career sacrifices or
assumed a disproportionate share of household work
as a consequence of the plaintiffs education; his con­
tributions were minor (see Higgins v. Higgins, 50
AD3d at 853).
The defendant contends that the pendente lite
award of child support was improper. The propriety
of the pendente lite order may not be reviewed on the
appeal from the judgment of divorce (see Anderson v.
Anderson, 50 AD3d 610; Samuelsen v. Samuelsen, 124
AD 2d 650). In any event, the proper remedy for any
perceived inequity in a pendente lite award is a speedy
trial, at which the financial circumstances of the
parties can be fully explored. Here, the trial has been
completed, and the judgment of divorce entered (see
Anderson v. Anderson, 50 AD3d at 610; Samuelsen v.
Samuelsen, 124 AD2d at 651).
The Supreme Court did not improvidently exercise
its discretion in imputing income for the purpose of
determining the defendant’s child support obligation
based on his employment history, future earning

App.28a

capacity, and money received from friends and relatives
(see Hainsworth v. Hainsworth, 118 AD3d 747; Baum­
gardner v. Baumgardner, 98 AD3d 929). The court’s
determination concerning the imputation of income
was based on the resolution of credibility, which is
given great deference on appeal (see Khaimova v.
Mosheyev, 57 AD3d 737). There is no basis in the
record to disturb the court’s determination that the
husband’s testimony concerning his finances was not
credible.
The defendant’s remaining contentions are without
merit.
MASTRO, J.P., DICKERSON, COHEN- and LA­
SALLE, JJ., concur.
ENTER:
Anrilanne Agostino
Clerk of the Court

App.29a

DECISION AFTER TRIAL OF THE
SUPREME COURT OF THE STATE OF NEW YORK
(MAY 2, 2008)
SUPREME COURT OF THE STATE OF NEW
YORK COUNTY OF NASSAU
RAMANDEEP BADWAL,
Plaintiff,
v.
AVTAR S. BADWAL,
Defendant.
Index No. 201751/06
Before: Hon. Jeffrey S. BROWN, J.S.C.
Before this court is a contested matrimonial action.
Plaintiff-wife, Ramandeep Badwal, and defendanthusband, Avtar Singh Badwal, were married in India
in a religious ceremony on February 14, 1988. Subse­
quently, on July 29, 1991 plaintiff and defendant were
married in a civil ceremony by a Judge in Queens
County, New York. This action was commenced on or
about June 16, 2006.
Plaintiff is approximately 42 years of age and
defendant is approximately 57 years of age. There are
three children of this union: Sujit Singh, born June
27, 1989, who resides with defendant; Bani Badwal

App.30a

born November 1, 1991; and Simaran Badwal, born
November 19, 1993 who reside with the plaintiff.
With respect to custody and parenting time, on
April 8, 2009, a stipulation was placed on the record
in open court wherein the plaintiff would have sole
physical and legal custody of the two children of this
marriage who are below the age of 18, namely Bani
and Simaran. The parties also agreed that the plaintiffmother would consult with the defendant-father regard­
ing all issues pertaining to health, education, schooling
and the children’s welfare. Further, the defendant
father would have liberal visitation with Bani and
Simaran as mutually agreed to by the parties and the
children.
With respect to grounds, plaintiff testified that
commencing on or about January 1, 2005, she repeat­
edly asked defendant to engage in sexual relations
for a period of at least one year, and for this one year
period, defendant continuously refused to engage in
sexual relations with her. Further, there was no
psychological or physical reason preventing the defend­
ant from having sexual relations with the plaintiff.
Plaintiff testified that she was a resident of the
State of New York for at least two years prior to the
commencement of the action. She also testified that
she would take all steps necessary to remove all
barriers to the defendant’s remarriage following the
divorce. There are no other actions pending for divorce,
separation or annulment or judgments resulting
therefrom. Defendant withdrew his answer and neither
admitted nor denied the allegations testified to by

the plaintiff.

App.31a
Pursuant to a pendent lite order of this court
(Brown, J., 5/2/08) defendant was directed to pay child
support in the amount of $250.00 a week retroactive
to the date of the application. Defendant was also di­
rected to maintain and continue policies of life, auto,
medical and dental insurance and to pay 50% of all
unreimbursed non-elective medical, psychiatric and
dental expenses provided by a participating physi­
cian for the plaintiff and the children retroactive to
the date of the application.
Plaintiff testified that defendant failed to pay any
child support pursuant to that order. Defendant
concedes that he has not paid the child support as
directed by the court, nor did defendant pay the
automobile, medical or dental insurance premiums.
Plaintiff testified that she paid $222.00 per month as
and for automobile insurance.
The children were covered until a few months
before April 2009 with Child Health Plus where there
were no premiums. However, the policy was cancelled
due to the fact that plaintiff earned too much money.
Presently she pays $550.00 per month for health
insurance for herself and the children.
Plaintiff was born January 1, 1968 in India. The
parties first met there in January 1988. She came to
the United States in May 1988. Prior to that she was
enrolled in an interior design course. The defendant
told her that he was in the “fast food restaurant”
business, and if she came to the United States with
him, there would be no need for her to work. Upon arriving in the United States, the parties
resided in a small room in Elmhurst, Queens, with
friends of the defendant. Plaintiff learned that her

App.32a

■i

husband was unemployed. Prior to that, the defendant
was employed in West Germany for approximately ten
years. Defendant rented a newsstand in 1988. After
a few months, the plaintiff and defendant moved to
Sunnyside, Queens. At that time, defendant started
to drive a taxi, with a rental fee of approximately $80
a day. After three years, in 1991, he purchased his
own medallion for approximately $150,000; $5,000 of
which came from plaintiffs savings, and the balance
came from friends. Plaintiff testified that the $5,000
came from money she received from her husband and
gifts from friends. Her cousin and a family friend,
Mr. Sharma, each gave her $1,500. She kept $4,000
in the closet. On May 7, 1993, defendant also took
out a small business loan for $116,000.
Plaintiff was a full time student at La Guardia
College in 1991. After six years, she transferred to
Wagner College and obtained a Bachelor’s Degree in
Nursing in 1997. She was employed part time in a
nursing home for about one year. In December 1998,
she became employed full time as a registered nurse
at Mount Sinai Hospital in Astoria, Queens, and was
employed there approximately four years. At that time
she earned approximately $50,000 to $55,000 per year.
She worked at St. John’s Hospital for about eight
months in 2002 earning approximately $72,000.
The parties purchased a legal two-family home
in Forest Hills, Queens, in 1997, for approximately
$255,000. Joint funds and money from friends in the
amount of $35,000 were used to make this purchase.
Plaintiff estimates that they borrowed less than
$20,000 from friends. Their friend, Mr. Sharma, gave
them $5,000 in cash toward the purchase of the house.
Additionally, defendant told plaintiff that a Mr. Daniel

App.33a

also gave them $5,000. Plaintiff testified that once she
started working she paid back Mr. Sharma. Plaintiff
believes some of the down payment came from defend­
ant’s medallion. A mortgage of approximately $200,000
was obtained from the Greenpoint Savings Bank and
the deed contained both of their names.
Defendant sold his medallion for about $230,000
in 2003 and then purchased a 29-unit motel in Abilene,
Kansas, for $370,000. Approximately $80,000 towards
the purchase price came from the sale of the medallion,
$30,000 came from plaintiffs savings and other funds
came from a refinance of the mortgage on the marital
residence with Citibank. Defendant testified that the
motel generated approximately $5,000 in profit year.
Further, defendant testified that he drew a salary of
$5,000 in 2005. However, defendant testified that he
received cash from the daily check-in at the motel
which he allegedly gave to his wife.
Plaintiff and her two daughters moved to Abilene,
Kansas. Their son remained with plaintiffs mother
in the marital residence. Plaintiff paid the mortgage
on the marital residence from the HSBC account while
the parties were in Kansas.
Plaintiff returned to the marital residence in
New York in August of 2004 with her daughters. Her
husband remained in Abilene, operating the motel
until March of 2006. Upon his return, defendant
advised the plaintiff that he sold the motel for
$470,000. Plaintiff did not have any advance know­
ledge of the sale nor did she sign any papers. Defend­
ant testified that plaintiff gave him her power of
attorney in order to close on the sale of the motel.
Defendant advised plaintiff that he received $100,000
in cash for the sale of the motel. He also showed her

App.34a
three cheeks; two checks in the amount of $100,000
each and one check in the amount of $88,000. Plaintiff
testified that defendant gave her two checks ($200,000)
from the sale of motel. She put that money in her
own Chase checking account. Plaintiff testified that
defendant tool the $100,000 in cash to India. The
balance of the money that defendant kept was used to
purchase a tow truck. Defendant now owns two tow
trucks.
Plaintiff is presently employed as a Registered
Nurse supervisor. She works part time for two organ­
izations; Personal Touch and First Choice. For the tax
year 2008, plaintiff earned $84,334 in wages. As of
March 1, 2009, plaintiff earned $12,556 from First
Choice Home Care.
•v

Defendant started a 24-hour towing service, on
or about December 17, 2006 called Eagle Grip Towing.
The defendant testified that he is the only employee.
He has a certificate from the City of New York
Consumer Affairs Department which authorizes him to
operate a tow company on local streets. Other than
the rental income, the corporation is his sole source
of income. He testified that he purchased a truck in
August of 2006 for $30,000. The money came from the
sale of the motel and cash from a Citibank account.
The account was funded by the return of the escrow
funds held by the title company. Defendant was unsure
if any funds were left in this account. He purchased
the second truck in September 2007 for about $56,000.
The money came from cash advances from credit cards
as well as loans from his nephew and friend. Apparently
a friend, Mr. Paul, is making the monthly credit card
payments. This friend is reimbursed in India by the
defendant’s parents who pay Mr. Paul’s parents in cash.

App.35a

These payments commenced in 2009 and are continu­
ing.
The defendant operates the tow truck during the
day. Mr. Paul takes the evening shift and keep the
money he earns from those calls, as he is an indepen­
dent contractor. Defendant denies that Mr. Paul pays
him money for use of the truck. Defendant also gets
business from 10-15 repair shops.
Defendant testified that he attempted to purchase
a gasoline station in June of 2006 for $35,000. Presently
litigation is pending since the deal did not conclude.
Defendant’s 2006 Federal Tax Return showed
earnings of $1,000; defendant’s W-2 in 2007 showed
wages of $19,999; and in 2008 defendant’s federal tax
return showed earnings of 18,867. Defendant’s
corporate entity, Eagle Grip Towing, Inc., filed a 1120
corporate tax return in 2008 which showed gross
receipts of $29,914 and compensation for officers of
$16,667. Defendant’s personal income tax return for
2009 showed earnings of $20,000. Defendant presently
takes a salary from the corporation of $400.00 per week.
There are also hundreds of dollars of monthly
incidental expenses. However, defendant failed to
provide the court with any evidence that substantiates
his testimony with respect to the carrying charges and
expenses. Defendant alleges that he took a loan from
a Prudential Insurance life policy in 2008 to help repay
money owed to Chase and Citibank. However, he has
no recollection as to the amount of the loan.
Plaintiff purchased a Honda CRY in 2002 for
approximately $22,000 or $23,000 and the car was paid
off in two years. However, plaintiff had no recollection
of the monthly payments or whether she completely

App.36a
financed it. She purchased a Rav4 for $28,000 in April
2008. Plaintiff financed the automobile. The monthly
insurance for the two cars is $222 per month.
Maintenance
“The amount and duration of a maintenance is a
matter committed to the sound discretion of the trial
court, and every case must be determined on its own
unique facts.” (DiBlasi v. DiBlasi, 48 A.D.3d 403, 404,
quoting Wortman v. Wortman, 11 A.D.3d 604, 606). “In
determining the appropriate amount and duration of
maintenance, the court is required to consider, among
other factors, the standard of living of the parties
during the marriage and the present and future earning
capacity of both parties” (Ruane v. Ruane, 55 A.D.3d
586: DiBlasi v. DiBlasi, supra at 404, quoting Haines
v. Haines, 44 A.D.3d 901, 902; see also Domestic Rela­
tions Law § 236[B][6][a]). “In fixing the amount of a
maintenance award, a court must consider the financial
circumstances of both parties, including their reason­
able needs and means, the payor spouse’s present and
anticipated income, the benefitting spouse’s present
and future earning capacity, and both parties’ stan­
dard of living” (Cerabona v. Cerabona, 302 A.D.2d 346;
Morrissey v. Morrissey, 259 A.D.2d 472, 473; see Feld­
man v. Feldman, 194 A.D.2d 207, 218),
Plaintiff is employed full time as a registered nurse
supervisor for businesses that provide home care.
Defendant is gainfully employed as the owner of a
tow truck company. At the commencement of this
trial, both counsel acknowledged to the court that
maintenance was not an issue at this trial. Therefore,
no award of maintenance is made for either the
plaintiff or defendant.

App.37a
Equitable Distribution

*aK

DRL § 236(B)(1)(c) defines marital property as “all
property acquired by either or both spouses during
the marriage and before . . . the commencement of a
matrimonial action, regardless of the form in which
title is held” (see Seidman v. Seidman, 226 AD2d 1011,
1012 [1996]). “Separate property, on the other hand,
is defined, in part, as property acquired before marriage
or property acquired by bequest, devise, or descent,
or gift from a party other than the spouse’” (DRL
§ 236[B] [l] [d] [l]; Sieger v. Sieger, 8 Misc.3d 1029[A]).
“In determining equitable distribution, the trial court
is directed to consider statutory factors, including the
income and property of each party at the time of the
marriage, and at the time of commencement of the
divorce action, the duration of the marriage, the age
and health of the parties, any maintenance award,
and the nontitled spouse’s direct or indirect contribu ­
tions to the marriage, including services as a spouse,
parent, wage earner and homemaker’” (Loria v. Loria,
46 A.D.3d 768; Domestic Relations Law § 236[B][5]
[d] [6]; see Holterman v. Holterman, 3 N.Y.3d 1, 8; Price
v. Price, 69 N.Y.2d 8, ll). “In fashioning an award of
equitable distribution upon dissolution of marriage,
the Supreme Court is required to discuss the statutory
factors it relied upon in distributing marital property”
(Milnes v. Milnes, 50 A.D.3d 750). “Equitable distrib­
ution, however, does not necessarily mean equal dis­
tribution” (Arrigo v. Arrigo, 38 A.D.3d 807).
The plaintiff and defendant were married approx­
imately 20 years. Plaintiff is approximately 42 years
of age, and defendant is approximately 57 years of
age. Both litigants are in good health and gainfully
employed. Prior to commencement of the action in June

App.38a
2006, defendant sold the motel which was marital prop­
erty. Only defendant was at the closing. The parties
dispute the distribution of the net proceeds of the
sale. Plaintiff testified that defendant sold the motel
for $470,000. Defendant allegedly received $100,000
in cash from the purchasers, which plaintiff claims was
taken to India by the defendant. Three additional
checks were out; two for $100,000 each, which plaintiff
kept and deposited, and one for $88,000, which plain­
tiff contends defendant kept. Defendant agrees that
plaintiff received $200,000. However, he claims that
plaintiff took the checks from, a briefcase without his
knowledge. He testified that he kept one check in the
amount of $89,000 as well as $60,000 returned to
him from escrow and $15,000 from the buyers. The
closing statement from the sale of the motel was not
put into evidence. No other financial evidence was
produced that would substantiate either claim.
Both litigants’ testimony tests the limits of cred­
ibility. All through their marriage, friends and relatives
were lending and gifting large sums of money. Money
was also kept in the closet. Convoluted repayment
arrangements were made through defendant’s family
in India. Cash was allegedly received from a buyer at
the closing in the amount of $100,000 which was sub­
sequently taken to India. The court finds it difficult to
believe either litigant with respect to the financial
transactions of this marriage. With respect to the motel
net. proceeds, the court determines that the parties
equitably distributed these funds back in 2006. There­
fore, no distribution will be made as part of this deci­
sion.
Domestic Relations Law § 236(B)(1)(c) defines mar­
ital property as all property acquired “during the

App.39a

marriage and before the execution of a separation agree­
ment or the commencement of a matrimonial action.”
Thus, in the absence of a separation agreement, the
commencement date of a matrimonial action demar­
cates “the termination point for the further accrual of
marital property” (Mesholam v. Mesholam, 11 N.Y.3d
24; Anglin v. Anglin, 80 N.Y.2d 553, 556[l992]).
Post commencement, each party used their
respective net proceeds in different ways. Plaintiff
purchased a house in New Hyde Park, and defendant
opened his towing company. Therefore, these properties
are not considered marital property and are not subject
to equitable distribution.
The marital home is subject to equitable distrib­
ution. It is problematic that no expert testimony was
adduced as trial as to the value of this home. The
defendant presently resides there with his son who is
over the age of 21 years. The defendant presently
resides there with his son who is over the age of 21
years. He uses the money from the rental apartments
located in the marital home in order to partially pay
the mortgage. However, by the court’s calculation
defendant does not bring in sufficient sums to keep
the house financially solvent. There is no credible
evidence presented to the court relative to what equity
remains, if any, with respect to the marital residence.
As a result, the court directs the sale of marital
residence with the net proceeds being divided equally.
The litigants shall conduct a broker and comparables
shall be used to set a listing price. The house shall be
placed on the market within 30 days after service of
a copy of this order upon the defendant’s counsel
with notice of entry. Defendant shall use the rental
income to pay the mortgage.

App.40a
Child Support
“Child support is determined by the parents’ ability
to provide for their child rather than their current
economic situation” (Bittner v. Bittner, 296 A.D.2d
516; Kalish v. Kalish, 289 A.D.2d 202; see Matter of
Zwick v. Kulhan, 226 A.D.2d 734) In determining a
party’s child support obligation, the court “need not
rely upon the party’s own account of his or her finances,
but may impute income based upon the party’s past
income or demonstrated earning potential.” (Strella
v. Ferro, 42 A.D.3d 544; Matter of Westenberger v.
Westenberger, 23 A.D.3d 571; see Spreitzer v. Spreitzer,
40 A.D.3d 840; Matter ofApgar v. Apgar, 37 A.D.3d
598, 599; Bernstein v. Bernstein, 18 A.D.3d 683, 684).
“Moreover, the court is not required to find that a
party has deliberately reduced his income to avoid
his support obligations in order to impute income to
that party” (Bittner, supra; Goddard v. Goddard, 256
A.D.2d 543). This determination must be grounded in
law and fast (see Powers v. Wilson, 56 A.D.3d 639).
In addition, the defendant’s invocation of his fifth
amendment privilege when asked certain questions
about reporting income, permits the court to make an
adverse inference against him.” (Fritz v. Fritz, 88 A.D.
2d 778);
Sujit, the oldest child, age 21, resides with the
defendant. As a result, defendant cannot receive pro­
spective child support on behalf of Sujit. The two
youngest children presently reside with the plaintiff
having left the marital residence in September 2006
and moving to New Hyde Park. By order of this court
(Brown, J., 5/2/08), defendant was directed to pay child
support in the amount of $250 per week. Defendant
concedes that he has not made these payments.

App.41a
Defendant testified that he earns $400 per week.
His 2009 tax return shows that he earned approx­
imately $20,000. He also receives $2,030 monthly for
apartments he rents in the marital residence or
approximately $24,360 per year. Defendant exercised
his fifth amendment right against self incrimination
when asked whether he reported the 2009 rental income
which amounts to $44,360 annually.
The monthly mortgage and real estate taxes
amount to $2,814.30 or approximately $33,771.60 annu­
ally. The other carrying charges of the marital resid­
ence plus incidental expenses amount to $1,783 a
month or approximately $21,396 per year. The total
expenses are $55,167 a year, not including other
incidental expenses a person incurs during his dayto-day existence. It is apparent that more than $10,000
a year is needed above this income in order to pay
the fixed expenses.
The Supreme Court is not required to rely upon
a party’s account of his or her finances (see DeSouzaBrown v. Brown, 71 A.D.3d 946; Khaimova v. Mosheyev, 57 A.D.3d 737; Ivani v. Ivani, 303 A.D.2d 639).
In determining an award of child support, the Supreme
Court “may depart from a party’s reported income and
impute income based on the party’s past income or
demonstrated earning potential” (Mongelli v. Mongelli,
68 A.D.3d 1070, 1071). Such a determination must be
grounded in law and fact (Id.)- Here, the defendant’s
expenses exceeded his income as reported in his tax
returns and testified to in court. It is interesting to
note that when the parties owned the motel, defend­
ant would give money to his wife from the cash
received at the daily check in. Additionally, defend­
ant would permit his friend, Mr. Paul, to use the tow

App.42a

truck to pick up calls without receiving any compensa­
tion from him. No satisfactory explanation was made
regarding defendant’s business compensation for the
use of the truck and how it affects his income.
For the purpose of determining child support,
plaintiff earns $84,434 as a Registered Nurse Super­
visor. Based on the credible evidence the court deter­
mines that defendant earns more money than which
he testified. However, the court will not consider the
rental income as part of the imputed amount, since the
marital residence has been directed to be sold as part
of equitable distribution and is presently being used
for partial payment of the mortgage. Based upon
defendant’s earning potential and other evidence, the
court imputes income in the amount of $50,000
annually to defendant for the purpose of determining
child support. The combined parental income after
deduction of FICA is $124,150. The presumptive
child support for two children at 25% is $31,037.50
Pursuant to a previous Stipulation, custody of
the two youngest children was awarded to the plaintiff.
Therefore, pursuant to the Child Support Standards
Act, defendant is directed to pay prospectively $222.00
per week until Bani reaches the age of 21 years, or is
sooner emancipated. Thereafter, child support shall be
$150.96 per week until Simaran reaches the age of
21 years, or is sooner emancipated. Defendant has
made no payments pursuant to the pendent lite
order. These, future payments shall be made through
the Child Support Collection. Unit of the Family
Court. These payments are retroactive to the com­
mencement of the action.

App.43a
Finally, plaintiff is responsible for 63% and
defendant is responsible for 37% of child care expenses
and unreimbursed medical expenses.
Arrears
Plaintiff left the marital residence with Bani and
Simaran in September 2006. Sujit remained in the
marital residence with the defendant. Plaintiff is
entitled to arrears for child support for the two
youngest children based upon the award of custody.
However, it would be inequitable not to grant defendant
a credit for the period of time Sujit resided with him,
from September 2006 until his 21st birthday.

v

As a result, plaintiff is entitled to arrears based
upon custody of the two children. The arrears are
calculated at 25% from the commencement of the
action, June 16, 2006, through the end of June, 2010.
The amount of arrears, based upon defendant’s income
and due to plaintiff is $46,619.00. Additionally, a
credit is due plaintiff in the amount of $3,053.00 for
defendant’s to plaintiff. However, a credit is awarded
to defendant based upon 17% from the end of September
2006 until June 27, 2010, the date Sujit turned 21.
The amount of credit due to defendant is $49,530 based
upon plaintiffs present salary. As a result, plaintiff
is entitled to a credit of $142.00 which shall be paid
to plaintiff from defendant’s share of the net proceeds
at the time the marital residence is sold.
Counsel Fees
An award of counsel fees pursuant to Domestic
Relations Law § 237(a) is a matter within the sound
discretion of the trial court, and the issue “is controlled
by the equities and circumstances of each particular

App.44a
case” (Morrissey v. Morrissey, 259 A.D.2d 472, 473; see
also Timpone v. Timpone, 28 A.D.3d 646; Walker v.
Walker, 255 A.D.2d 375, 376). In determining whether
to award fees, the court should “review the financial
circumstances of both parties together with all the
other circumstances of the case, which may include the
relative merit of the parties’ positions” (DeCabrera v.
Cabrera-Rosete, 70 N.Y.2d 879; see also Ciampa v.
Ciampa, 47 A.D.3d 745). The court may also consider
whether either party has engaged in conduct or
taken positions resulting in a delay of the proceedings
or unnecessary litigation (see Ciampa v. Ciampa, 47
A.D.3d at 748; Timpone v. Timpone, 28 A.D.3d at 646;
Morrissey v. Morrissey, 259 A.D.2d at 473; Walker v.
Walker, 255 A.D.2d 375, 376).
Other factors include the nature and extent of
services rendered and the complexity of issues involved
(see Farrell v. Cleary-Farrell, 306 A.D.2d 597 [3d Dept
2003]), the ability of each spouse to pay their own
counsel fees (see Solofani v. Solofani, 178 A.D.2d 830
[3d Dept 1992]), whether an equitable distribution
award was made (see Zema v. Zema, 17 A.D-3d 360
[2d Dept 2005]), and the earning power and assets of
the parties (see Kavanakudiyil v. Kavanakudiyil, 203
A.D.2d 250 [2d Dept 1994]; S.P. v. F.O., 20 Misc.3d
1104[A]).
The Court finds that each litigant shall be respon­
sible for. paying their own legal fees. The amount of
gifts, loans arid unusual financial transactions testi­
fied to by the plairitiff and the defendant convinces the
court that each spouse has the ability to pay their
own counsel fees.

App.45a

This constitutes the decision and order of the
court. Submit findings of fact, conclusions of law and
a judgment on notice.
Enter:
/s/ Jeffrey S. Brown
J.S.C.
Dated: Mineola, New York
July 1, 2010
To:

Plaintiff s Attorney
Ira Bierman, Esq.
485 Underhill Blvd.
Syosset, NY 11791
Defendant’s Attorney
John Lawrence, Esq.
190 Willis Avenue
Mineola, NY 11501

App.46a

ORDER OF THE SUPREME COURT
OF THE STATE OF NEW YORK
(SEPTEMBER 15, 2008)
SUPREME COURT OF THE STATES OF
NEW YORK COUNTY OF NASSAU
RAMANDEEP BADWAL,
Plaintiff,
v.
AVTAR S. BADWAL,
Defendant.
No.
Before: Hon. Jeffery S. BROWN, J.S.C.
The Parties and their counsel having appeared
before the undersigned on September 11, 2008, and
upon consent of counsel, the court hereby appoints
J.C. Appraisal, 181 So. Franklin Avenue, Ste. 3, Valley
Stream, New York 11581 to appraise
•

The real property located 110-30 62nd Drive,
Forest Hills, New York

It is further Ordered, the cost of such appraisal
shall
•

be paid by the defendant husband subject to
reallocation.

App.47a

The ultimate responsibility for these costs shall
be determined by the Court at the conclusion of the
matter.
The retainer and all subsequent billing shall be
paid promptly.
Counsel and the parties are further directed to
supply the appraiser with all requested information
forthwith.
The appraiser is directed to contact the court if
any difficulty arises in complying with the report due
date or if the required information it not forthcoming
with two (2) weeks of the date of this order.
Please indicate the case name and index number
on the report.
Is/ Jeffery S. Brown
J.S.C.
Dated: September 11, 2008
Mineola, New York

App.48a

ORDER OF THE SUPREME COURT
OF THE STATE OF NEW YORK
(MAY 2, 2008)
SUPREME COURT OF THE STATE OF NEW
YORK COUNTY OF NASSAU
RAMANDEEP BADWAL,
Plaintiff,
v.
AWAR S. BADWAL,
Defendant.
Index No. 201751/06
Before: Hon. Jeffrey S. BROWN, J.S.C.
The following papers were read on this motion:
1. Notice of Motion for Pendente Lite Relief
2. Affidavit in Support of Motion for Tempo­
rary Support
3. Affidavit in Opposition
4. Reply Affirmation

s

Plaintiff moves by motion for the following
pendente lite relief: a) granting Plaintiff temporary
sole custody of the minor children of the marriage; b)
pursuant to DRL § 236, directing the Defendant to
pay to the Plaintiff temporary weekly child support
in the amount of $400.00 per week; c) pursuant to
DRL § 236(b)(6)(a), directing that Defendant pay any

-f

App.49a
and all carrying charges for the former marital
residence in Forest Hills, New York, which is exclusively
occupied by the Defendant, including, but not limited
to the mortgage, taxes, homeowners insurance, main­
tenance and repairs, oil, water, electric, and other
utilities; d) pursuant to DRL § 237(d), directing Defend­
ant to maintain and pay the existing home, auto­
mobile, life insurance and health insurance and to
pay a pro rata share of all uncovered or unreimbursed
health costs for the minor children; e) restraining and
enjoining the Defendant or his attorney, agents, heirs
or assigns, or anyone acting in concert therewith, be
they known or unknown, from transferring, removing,
dissipating, encumbering or hypothecating assets sub­
ject to equitable distribution ending the determina­
tion of the underlying matrimonial action.
-t

The instant action was commenced on June 16,
2006 by the filing of a Summons for . Divorce. The
Plaintiff states that the parties were married in
Chandigarh, India on February 14, 1988 in arranged
marriage, which is the custom in India. The Plaintiff
moved to the United States in May, 1988 to live with
the Defendant who was a resident here. There are three
children born of this marriage, to wit: Sujit Singh
born June 27, 1989; Bani Kaur Badwal born November
1, 1991; and Simran Kaur Badwal born November 19,
1993. Plaintiff states that the two younger children
currently reside with her in a pne family residence in
New Hyde Park, New York. The oldest child resides
at Stonybrook University where he attends college.
The Defendant resides, with his nephew in the former
marital residence located in Forest Hills, New York.
Plaintiff avers that the nephew works and contributes
money to the Defendant. •

App.50a
The former marital home is a legal two family,
residence. Plaintiff alleges the upstairs apartment is
rented at a rate of $1,330.00 per month and the
basement apartment is rented at $750.00 per month
bringing the total rental income to $2,080.00 per month.
Defendant allegedly retains all of the rental income.
Plaintiff is currently employed as a nurse earning
an annual salary of $65,000.00. She states she has no
other source of income and has credit card debt totaling
over $30,000.00. Defendant allegedly earned a bach­
elor’s degree in education and a master’s degree in
botany in India before immigrating to the United
States. Defendant has held manj' different jobs during
the course of the marriage. In 1993, Defendant allegedly
purchased a taxi Medallion. In 2003, he sold the
Medallion for the approximate sum of $227,000.00.
Thereafter, a motel purchased in Kansas. The parties
moved to Kansas and worked to run the motel until
2006 when it was sold. The Plaintiff believes, the
motel was sold for the advertised price of $500,000.00
although Plaintiff was not informed of the actual sale
price. Plaintiff was given $200,000.00 from the proceeds
of that sale. Defendant allegedly kept the balance.

■ t;

In June 2006, Plaintiff filed for divorce, moved out
of the marital residence and purchased a home in New
Hyde park, New York for $725,000.00. The home was
financed with a mortgage of $580,000.00 and with
Plaintiff s proceeds from the sale of the Motel. Plaintiff
contends that the Defendant started a business as a
tow truck operator and owns his truck. She is unaware
of how much the Defendant currently earns but believes
he is doing “well.” It is alleged that the Defendant has
not paid any child support since the Plaintiff moved

App.51a

out of the marital home in June 2006. Plaintiff has
put the New Hyde Park residence on the market.
According to Plaintiffs statement of net worth, she
and the children incur the following monthly expenses:
mortgage $4,500.00; utilities $950.00; food $1,550.00;
clothing $750.00; laundry $130.00; insurance $270.00;
unreimbursed medical $700.00; household maintenance
$970.00; automotive $540.00; educational $850.90;
recreational $1,153.00; miscellaneous $805.00 for a
total of $ 13,168.00.
Plaintiff indicates the value of her savings accounts
are $3,015.00; value of real estate amounts to $780,
000.00; and value of two vehicles are $23,000.00.
Defendant opposes the motion. In his Affidavit in
Opposition, Defendant asserts that he presently earns
$18,000.00 per year as a tow truck operator. He
attaches for the Court’s review copies of his 2007 W-2
form which shows earnings of $19,999.92 and a copy
of his 2006 income taxes that states that he lives in
the marital home and receives rental income of
$1,340 income monthly. He denies receiving rental
income from a basement apartment. He indicates the
monthly mortgage payment is $2,650.00 and the
monthly tax payment is $400.00.
Defendant alleges that the motel in Kansas was
bought and sold for $375,000.00. He indicates there
were closing costs in the amount of $25,000.00 and
he received $144,000.00 from the sale while the Plaintiff
received $245,000.00. Defendant purchased a tow truck
for $35,000.00 and lost $40,000.00 in a gas station
investment. He allegedly used the remaining $69,000
.00 to support the family in 2006 when he was too ill
to work. Defendant indicates a credit card debt in the

App.52a

amount of $38,000.00, however, this debt is not
reflected on his statement of net worth. Defendant
contends that the parties’ son resides with him while
he attends Stony Brook University.

s

v
p

l . »
. . i

Defendant’s statement of net worth reflects the
following monthly expenses; housing and taxes $2920.
00; utilities $625.00; food $600.00; clothing $150.00;
laundry $40.00; insurance 250.00; unreimbursed med­
ical $125.00; household maintenance $220.00; auto­
motive (Mercedes) $510.00; educational $50.00; Recrea­
tion $30.00; Miscellaneous $120.00 for a total of
$5,640.00.
The statement of net worth indicates a gross
income of $5,001.98; value of household furnishings
$10,000.00; value of jewelry of wife $7,000.00 and a
credit card debt in the amount of $2,000.00.
In reply, Plaintiff points out that Defendant’s
expenses far exceed his alleged income of $18,000.00
per year. In addition, Plaintiff asserts that on February
27, 2008 Defendant mailed a notarized affidavit to
her counsel’s office which indicates he earned a gross
income from the motel of $130,000.00 per year (Reply
Affirmation Exhibit A).
It is contained in the Child Support Standards
Act (Domestic Relations Law § 240 [l-b] [c]) the factors
which permit a deviation from the standard calculation,
as delineated in § 240 (l-b)(£>,' such as the financial
resources of the custodial and noncustodial parent
and those of the children, the physical, and emotional
health of the children, and his or her educational or
vocational needs and aptitudes, as well as the non­
monetary contributions that the parents will make
toward the care and wellbeing of the children. See
Killian v. Lowden, 236 A.D.2d. 236, 654 N.Y.S.2d. 288

f

App.53a
(1st Dept. 1997). The court also has taken into account
the shelter costs attributable to the children in order
to avoid duplication of awards. Linda R.H. v. Richard
E. H., 205 A.D.2d 498, 612 N.Y.S.2d. 656 (2nd Dept.
1994). In calculating an award of child support, the
court can impute income to a spouse predicated upon
that individual’s past earnings, actual earning capacity
and educational background, however, the parents’
earnings potential upon which the court relies to
render an award, must have a basis in law and fact.
Gezesher v. Shoshani, 283 A.D.2d 455 [2nd Dept 2001];
see also Petek v. Petek, 239 AD2d 327 (2nd Dept. 1997).
Guided by the above, Defendant is directed to Pay
$250.00 per week child support. The Court bases its
decision on the documentation and, more importantly,
the lack of documentation, provided by the parties.
For instance, the Court was not provided with a
closing statement from the sale of the motel. Since
the affidavits of the parties conflict it was impossible
to discern what the proceeds from the sale were.
Based on the foregoing, Defendant is directed to
pay all carrying charges, including but not limited to,
mortgage payments, insurance and utilities- such as
gas, electricity, heat, and telephone service, for the
marital residence in Forest Hills. Defendant is also
directed to maintain and continue policies of life, auto,
medical and dental insurance, if any, on behalf of
Plaintiff and the parties’ children and to pay a pro
rata share (50%) of all un-reimbursed non-elective
medical, psychiatric and dental expenses for the
parties’ children. He shall not be responsible for any
elective procedures,, nor to pay for services of any
physicians who are not participants in the medical
insurance plan network maintained by defendant,

App.54a

3

*

-

except in consideration of any established physician
relationship. Hills v. Hills, 240 A.D.2d. 707, 660 N.Y.S.
2d 36 (2nd Dept. 1997)
The award is retroactive to the original date of
service of this apphcation. See Domestic Relations Law
§ 236B(6). Selznick v. Selznick, 251 A.D.2d 489,673
N.Y.S.2d 919 (2nd Dept. 1998). Retroactive sums due
by reason of this award shall be paid at the rate of
$400.00 per month in addition to the sums awarded
until all arrears have been satisfied. Defendant may
take a credit for sums voluntarily paid for actual sup­
port of the children incurred after the making of this
motion and prior to the date of this decision for which
he has canceled checks or other similar proof of pay­
ment. See Daniels v. Daniels, 243 A.D.2d 254, 663
N.Y.S.2d 141 (1st Dept. 1997); Ferraro v. Ferraro, 257
A.D.2d 598, 684 N.Y.S.2d 276 (2nd Dept. 1999). The
first payment hereunder shah be made within seven (7)
days of the date, of this decision and then weekly
thereafter.
The branch of Plaintiff s motion requesting tem­
porary sole custody of the children is denied.
In child custody proceedings the court must
consider the best interests of the child. In determining
the best interests of the child,, the court must look at
the totality of the circumstances, and consider the
quality of the home environment, the parental guidance
the custodial parent provides for the child, the ability
of each parent to provide, for the child’s emotional
and intellectual development, the relative fitness of
the respective patent, and the effect an award of
custody to one parent might have on the child’s rela­
tionship with the parent.(Zafran v. Zafran, 306 AD2d
468 [2nd Dept. 2003] Domestic Relations Law § 70[a];

App.55a

Eschbach v. Eschbach, 56 N.Y.2d 167, 171, 451 N.Y.S.
2d 658, 436 N.E.2d 1260 [1982]; Miller v Pipia, 297
AD.2d 362, 364, 746 N.Y.S.2d 729 [2002]).
The issue of temporary custody is hereby referred
to a hearing for a determination as to what is in the
children’s best interest. Said hearing shall be scheduled
at the next conference date, at which time all parties
are expected to be present.
Ordered that both the Plaintiff and Defendant are
enjoined from selling, transferring, conveying or other­
wise disposing of assets pending further court order,
except for ordinary and routine living and business
expenses, in order to maintain the status quo for
possible equitable distribution upon the plenary trial
of this action (see Leibowits v. Leibowitz, 93 AB2d 536
[2nd Dept. 1983]). “The exception for “ordinary and
routine living expenses” contemplates that payment of
these expenses be paid from current income unless
current income is insufficient to meet the reasonable
needs of the parties. The parties are cautioned that
any unauthorized invasions of assets for any purpose
may result in a finding of contempt if it is later found
that current income was not exhausted prior to invasion
of assets.
The parties are directed to appear for a conference
on May 20, 2008 at 9:30 a.m.
This constitutes the decision and order of this
Court., All applications not specifically addressed
herein are denied.
Is/ Jeffrey S. Brown .
J.S.C.
Dated: Minedla, New York
May 2, 2008

